App. 1

People v. Bazzi, 943 N.W.2d 90 (2020)

943 N.W.2d 90 (Mem)
Supreme Court of Michigan.

PEOPLE of the State of
Michigan, Plaintiff-Appellee,
v.
Nasser Mohamad BAZZI,
Defendant-Appellant.
SC: 159989
|
COA: 347765
|
May 15, 2020
Wayne CC: 13-007077-FC

Order
On order of the Court, the application for leave to appeal the
May 30, 2019 order of the Court of Appeals is considered,
and it is DENIED, because the defendant has failed to meet
the burden of establishing entitlement to relief under MCR
6.508(D).

Cavanagh, J. (dissenting.)
I respectfully dissent from this Court’s order denying
defendant’s application for leave to appeal because defendant
presented sufficient evidence to warrant a remand for a
Ginther1 hearing on his claim of ineffective assistance of
counsel.
In 2013, defendant was convicted after a jury trial of one count
of first-degree criminal sexual conduct, MCL 750.520b(1)(a);
two counts of second-degree criminal sexual conduct, MCL
750.520c(1)(a); and two counts of fourth-degree criminal
sexual conduct, MCL 750.520e(1)(a), from charges stemming

from the sexual abuse of his niece. His conviction was
affirmed on appeal, and this Court denied his application for
leave to appeal. People v. Bazzi, 499 Mich. 928, 878 N.W.2d
863 (2016). In 2018, defendant filed his first motion for relief
from judgment. The trial court denied the motion, and the
Court of Appeals denied defendant’s application for leave to
appeal. Defendant now seeks leave to appeal in this Court.
In his motion for relief from judgment, defendant contended,
among other things, that his attorneys were ineffective for
failing to request an interpreter on his behalf. Defendant
asserts that his primary language is Arabic and that he did not
fully *91 understand most of the trial proceedings, including
plea negotiations. See People v. Gonzalez-Raymundo, 308
Mich. App. 175, 188, 862 N.W.2d 657 (2014) (“The lack of
simultaneous translation implicated defendant’s rights to due
process of law guaranteed by the United States and Michigan
Constitutions.”).
In support, defendant submitted four affidavits, the results of
an English proficiency test, and the results of a polygraph
examination. Two of the affidavits are from defendant’s two
trial attorneys; one of them avers that defendant’s English
comprehension “was very low,” and the other says that
defendant’s English language comprehension “may have
been compromised.” Both state that they are not prepared
to say with certainty that defendant fully understood the
consequences of going to trial or his right to take the stand
in his own defense. The polygraph examination results show
that the examiner believed that defendant was being truthful
when he responded “no” when asked whether he understood
most of the trial because of language and whether his attorney
thoroughly explained the prosecutor’s plea offer.
This was more than sufficient to warrant a Ginther hearing on
defendant’s claim of ineffective assistance of counsel. I would
remand to the trial court to hold such a hearing.
All Citations
943 N.W.2d 90 (Mem)

Footnotes

1

People v. Ginther, 390 Mich. 436, 212 N.W.2d 922 (1973).

End of Document

© 2020 Thomson Reuters. No claim to original U.S.
Government Works.

WESTLAW © 2020 Thomson Reuters. No claim to original U.S. Government Works.

1

App. 2

Court of Appeals, State of Michigan
ORDER
Thomas C. Cameron
People of MI v Nasser Mohammad Bazzi

Presiding Judge

Docket No.

347765

Kirsten Frank Kelly

LC No.

13-007077-01-FC

Michael J. Riordan
Judges

The Court orders that the delayed application for leave to appeal is DENIED because
defendant has failed to establish that the trial court erred in denying the motion for relief from judgment.

A true copy entered and certified by Jerome W. Zimmer Jr., Chief Clerk, on

MAY 3 0 2019
Date

App. 3

STATE OF MICHIGAN
IN THE THIRD JUDICIAL CIRCUIT COURT
FOR THE COUNTY OF WAYNE
PEOPLE OF THE STATE OF MICHIGAN,
Plaintiff,
Hon. Lawrence S. Talon
Case# l3-007077-01 FC

vs
NASSER MOHAMAD BAZZI,
Defendant.
_ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _.!
OPINION

On December 5, 2013, following a jury trial, defendant, Nasser Bazzi, was convicted of
two counts of first-degree criminal sexual conduct, contrary to MCL 750.520b, two counts of
second-degree criminal sexual conduct, contrary to MCL 750.520c, and two counts of fourthdegree criminal sexual conduct, contrary to MCL 750.520e. On December 19, 2013, defendant

was sentenced to concurrent terms of one hundred thirty-five (135) months to twenty-two (22)
years' incarceration for his CSC l5 1 degree conviction, ten (10) years to fifteen (15) years for his
CSC 2nd degree conviction, and one (1) to two (2) years for CSC 4 th degree conviction. On
November 6, 2014, this Court denied defendant's motion for an evidentiary hearing, and his
motion for a new trial. On October 1, 2015, Michigan's Court of Appeals affirmed defendant's
conviction and sentence. People v. Nasser Bazzi, unpublished opinion, COA Docket# 320065
(2015). On May 24, 2016, Michigan's Supreme Court denied defendant's application for leave
to appeal. Defendant now brings a motion for relief from judgment pursuant to MCR 6.500 et
seq. The Prosecution has filed a response.

Defendant alleges three errors.

Issue [1] Defendant argues he was deprived of a

constitutionally fair trial because without an interpreter, he could not understand or fully
participate in the proceedings against him. The trial court erred when it failed to appoint an
interpreter, and trial counsel was ineffective for failing to inform defendant of his right to an

interpreter. [2] Defendant argues the trial court erred when it proceeded without adhering to
the requirements of MCR 1.111 and trial counsel was ineffective for continuing at trial without
lodging an objection, after it be.came clear that a witness's interpreter was making mistakes.
[3] Defendant claims he is entitled to relief under MCR 6.508(D), as he putatively has

established good cause by the failure of his appellate attorney to raise these issues on direct
appeal, and actual prejudice as a result of his total deprivation of his indispensable
constitutional rights.
MCR 6.508(D) provides in relevant part:

The Defendant has the burden of establishing entitlement to the relief requested.
The court may not grant relief to the Defendant if the motion:
***

(2) Alleges grounds for relief which were decided against the Defendant in a
prior appeal or proceeding under this subchapter, unless the Defendant
establishes
(3) Alleges grounds for relief, except jurisdictional defects, which could have
been raised on appeal from the conviction and sentence or in a prior motion
under this subchapter, unless the Defendant demonstrates
(a) Good cause for failure to raise such grounds on prior appeals or in the prior
motion, and
(b) Actual prejudice from the alleged irregularities that support the claim for
relief. As used in this rule, "actual prejudice' means that
(i) In a conviction following a trial, but for the alleged error the Defendant would
have had a reasonably likely chance for an acquittal;
1

***

2

(iii) Or that the irregularity was so offensive to the maintenance of a sound
judicial process it should not be allowed to stand regardless of its effect on the
outcome of the case.
***
The court may waive the "good cause" requirement of sub-rule
(D)(3)(a) if it concludes that there is a significant possibility that the Defendant is
innocent of the crime.
Defendant's first and third arguments will be consolidated, as they are inter-related
issues. In order to obtain relief under the provisions of MCR 6.500 et seq, the defendant must
show good cause for failing to raise an issue that could have been raised on appeal and actual
prejudice from the alleged error. MCR 6.508(D)(3)(a) and (b)(i). Here, defendant contended
that he had good cause for not raising these issues on appeal or in any prior post-conviction
motion because his atto.meys were ineffective. However, defendant has not provided any
evidence or offer of proof to show any of his counsels were ineffective.
First, the question of whether this Court erred in declining to appoint defendant an
interpreter (sua sponte) was not preserved, therefore, defendant must satisfy the burden of
proof under the Plain Error Doctrine, which is 1] an error, must have occurred, 2] the error was
plain (clear or obvious), and 31 the plain error must have affected defendant's substantial
rights. People v Carines, 460 Mich 750; 597 NW2d 130 (1999). The third prong requires the
defendant to establish that the error affected the outcome of the lower court proceedings.

People v. Borgne, 483 Nfich 178, 196; 768 NW2d 290 (2009). Moreover, once the defendant has
satisfied all of the aforementioned elements, reversal is only warranted if the "forfeited error
n:~sulted in the conviction of an actually innocent defendant, or the error seriously affected the
fairness, integrity or public reputation of the judicial proceedings independent of the

3

defendant's im1ocence." People v Leonard, 224 Mich App 569; 569 NW2d 663 (1997). Although,
defendant asserts this issue as a constitutional structural defect, failure to appoint an
interpreter is not part of the explicitly enumerated list, and in the absence of a request has not
been ruled to be a structural error, but, rather an w1preserved error. Borgne, supra.
Second, defendant claims his attorneys were ineffective for failing to request an
interpreter for him during his trial. However, in order for defendant to obtain post-conviction
relief for ineffective assistance of trial counsel based upon counsel's alleged failures, he must
show trial cow1sel' s representation fell below an objective standard of reasonableness and that
trial counsel's representation was constitutionally deficient.

Defendant must show that

counsel's performance was deficient, and, under an objective standard of reasonableness, that
the error was so serious that counsel was not functioning as an attorney (constitutionally
deficient) as guaranteed under the Sixth Amendment. People v. Hurst, 205 Mich App 634, 640641; 517 NW2d 858 (1994). The detem1ination of whether a defendant has been deprived of
the effective assistance of cotmsel is a mixed question of fact and law. People v. Dendel, 481
Mich 114, 124, 748 NW2d 859 (2008). This Court reviews the trial court's factual findings for
clear error and reviews its constitutional determinations de novo. Id. As defendant did not
establish a testimonial record regarding the ineffective assistance of counsel claim, review is
limited to mistakes apparent on the record. People v. Wilson, 242 Mich App 350, 352, 619 NvV2d
413 (2000).

Effective assistance of counsel is presumed, and the defendant bears a heavy burden of
proving otherwise. People v. LeBlanc, 465 Mich. 575, 578, 640 NW2d 246 (2002). Generally, to
4

establish ineffective assistance of counsel, a defendant must show: (1) that cmmsel's
performance was below an objective standard of reasonableness under prevailing professional
norms; (2) that there is a reasonable probability that, but for counsel's error, the result of the
proceedings would have been different, Strickland v. Washington, 466 US 668, 688, 694, 104 S Ct
2052, 80 LEd2d 674 (1984); People v. Frazier, 478 Mich. 231, 243, 733 N.W.2d 713 (2007), and (3)

that the resultant proceedings were fundamentally unfair or unreliable, People v. Odom, 276
Mich App 407, 415, 740 NW2d 557 (2007). Counsel's performance must be measured again.st
an objective standard of reasonableness and without the benefit of hindsight. People v. LaVearn,
448 Mich 207, 216, 528 NW2d 721 (1995). Cotmsel must investigate, prepare, and present all
substantial defenses. In re Ayres, 239 Mich App 8, 33, 608 NW2d 132 (1999). This Court,
however, will not substitute its judgment for the judgment of cmmsel regarding matters of
trial strategy. People v. Rockey, 237 Mich App 74, 76, 601 NW2d 887 (1999).
Although, defendant has provided two affidavits from his trial attorneys, ,,vhich
purport in hindsight, they should have hired an interpreter to ensure defendant completely
tmderstood what was going on with his case; an attorney's mere claim that when looking back
with the benefit of hindsight he now is Lmcertain whether or not his client understood him
does not meet the standard of legal incompetence or unprofessional conduct. MRPC 1.4(b). 1
If defendant's attorneys, Cyril Hall and Amir Makled, realized he did not understand what

they were saying to him, or was unable to interact with them to assist them in his own defense,

1

A lawyer shall explain a matter to the extent reasonably necessary to permit the client to make informed
decisions regarding the representation. MRPC 1.4(b).

5

then MRPC 1.4(b) and Strickland would be breached. However, neither 1,fr. Hall nor Mr.
Makled in their affidavits makes this assertion; rather they claim in retrospect, defendant could
have benefited from an interpreter. Consequently, defendant fails to carry his burden of proof.
Thus, he is not entitled to relief. Both the Plain Error Doctrine and Ineffective Assistance of
Counsel require a showing that a plain error was made by this Court or by his atton1eys.
However, defendant only provides suggestions in hindsight that he should have had an
interpreter, not evidence that he actually needed one. Similarly, defendant has not shown
sufficient evidence that his appellate counsel's decision not to raise this issue during his appeal
of right constituted error, and thus, summarily has failed to meet the good cause requirement
of MCR 6.508(0)(3).
Third, throughout the trial, defendant displayed a clear understanding of the English
language, completely contrary to the assertions made by him within his motion. This Court
had numerous opporttmities to interact with the defendant throughout the trial and
sentencing, and at no time did he display any of mental deficits or difficulty in understanding
spoken English. In fact, defendant routinely greeted the court and staff with "Good Morning
or Good Afternoon" where appropriate. Prior to the trial, when questions were raised about
immigration consequence pertaining to a potential guilty plea, defendant affirmatively
answered that he was a United States Citizen. Moreover, this Court conducted a voir dire of
the defendant as it pertained to the People's plea deal:
THE COURT:

Okay. You may put your hand down. Tell me your
full name, please.

DEFENDANT BAZZI:

Nasser Mohamad Bazzi.
6

THE COURT:

And how old are you, Mr. - Bazzi is how you
pronounce it?

DEFENDANT BAZZI:

Bazzi.

THE COURT:

Okay. And how old are you?

DEFENDANT BAZZI:

Forty-three.

THE COURT:

How far have you gone in school?

DEFENDANT BAZZI:

The tenth grade.

THE COURT:

All right. Mr. Hall is your attorney?

DEFENDANT BAZZI:

Yes, sir.

THE COURT:

Okay. Do you understand the offer that's been made?

DEFENDANT BAZZI:

Yes, sir.

THE COURT:

Have you had an opportunity to discuss this offer
with Mr. Hall?

DEFENDANT BAZZI:

Yes.

THE COURT:

And have you made a decision?

DEFENDANT BAZZI:

Yes.

THE COURT:

Do you wish to accept the prosecutor's offer or reject
it?

DEFENDANT BAZZI:

Reject.

THE COURT:

Okay. Has anyone threatened you to get you to make
this decision?

DEFENDANT BAZZI:

Not at this time.

THE COURT:

All right. Has anyone forced you to get you to make
this decision?

DEFENDANT BAZZI:

No, sir.

THE COURT:

Anyone promised you anything m exchange for
making this decision?

DEFENDANT BAZZI:

No, sir.

THE COURT:

Is it your own choice?

DEFENDANT BAZZI:

Yes, sir.

THE COURT:

Are you making it freely and voluntarily?

7

DEFENDANT BAZZI:

Yes, sir. 2

Further, on November 26, 2013, this Court informed defendant he was late for court,
and defendant responded, "I'm sorry", "there was a lot of traffic." In fact, this Court
conducted voir dire with this defendant on his right to testify, and after his conviction, during
his sentencing hearing. 3

4

At no time did the defendant appear to lack any understanding of

the English language or indicate he was confused or in need of an interpreter on or off the
record. People v Atsilis, 60 Mich App 738; 231 NW2d 534 (1975). The question of whether an

interpreter is needed for the defendant is a matter for the trial judge's discretion. MCL 775.19a.
\rVhen there is no evidence presented to make language an issue in the case, the trial court has
no duty to affirmatively establish defendant's proficiency in English.

Id.

As defendant

presented no evidence to show he suffered from any English language comprehension
deficiencies, this Court did not have an affirmative duty to show he was proficient in English
or to sua sponte appoint an interpreter simply because he immigrated into this cotmtry.
Defendant's final argument is that he was deprived of a fair trial because Afrah
Hamid's interpreter was inaccurate and not properly certified.

Defendant also claims his

attorneys were ineffective for failing to object to the interpreter. The standard of review of an
unpreserved error is done under the Plain Error Doctrine. Carines, supra. If a defendant can
satisfy all the above requirements, reversal is only warranted if the forfeited error resulted in
the conviction of an actually innocent defendant or the error seriously affected the fairness,

2

T. 11/22, 4-9.

3

T. 12/4, 4-6.

4

SEN 12/19, 5-8.
8

integrity or public reputation of the judicial proceedings independent of defendant's
innocence. ld. However, this Court finds no error in the appointment of Samerah Rahal, who
is a qualified Arabic interpreter on the Michigan Supreme Court's List of qualified foreign
language interpreters to translate Arabic to English. Witness, Afrah Hamid, was able to speak
and Lmderstand both English and Arabic, and during her direct and cross-examination, she
was able to answer all of her questions in English. This Court's appointment of Ms. Rahal was
a prophylactic measure pursuant to MCR 1.111, to ensure she would have assistance to
prevent any potential problems.
In order to determine whether the services of a foreign language interpreter are
necessary for a person to meaningfully participate under submle (B)(l), the court
shall rely upon a request by an LEP individual (or a request made on behalf of an
LEP individual) or prior notice in the record. I£ no such requests have been made,
the court may conduct an examination of the person on the record to determine
whether such services are necessary. During the examination, the court may use
a foreign language interpreter. For purposes of this examination, the court is not
required to comply with the requirements of subntle (F) and the foreign
language interpreter may participate remotely. MCR 1.lll(B)(3).
The court shall appoint a single interpreter for a case or court proceeding. The
court may appoint more than one interpreter after consideration of the nature
and duration of the proceeding; the number of parties in interest and witnesses
requiring an interpreter; the primary languages of those persons; and the quality
of the remote technology that may be utilized when deemed necessary by the
court to ensure effective communication in any case or court proceeding. MCR
1.lll(F).
Finally, defendant did not object to the appointment of Ms. Rahal. He cannot now
claim he feels she misinterpreted some of Afrah' s statements, when he voiced no such
objection during trial, and by his own admission, is not proficient enough in English to
qualitatively question Ms. Rahal's translation of Afrah Hamid's statements in Arabic to
9

English. Defendant's assertions do not meet the prejudice prong of either Strickland or Carincs.
His challenge o f Ms. Rahal's interpretation and claim of ineffective assistance of counsel arc
both unfounded claims as neither were deficient in their respective duties for this Court or for
their representation for the defendant.
Defend,mt has already exhausted his appeals, and this is his third post-conviction
motion, yet this is the first time he has raised any issue pertaining to the need of an interpreter
or translator, or that Afrah Hamid's interpreter erroneously translated her statements to the
court. Therefore, this Court finds defendant has not demonstrated both good cause and actual
prejudice for the reasons stated above; and as such, defendant' s arguments fail to meet the
heavy burden under MCR 6.508 (D)(3)(a). Thus, this Court holds defendant's motion for relief

from judgme/n~e~ue:t::g:

:ew ~ce

1

/

(/

" ; /C'

Dated:_____

OCT Z 4 2018

1J

trial and

of an interpreter i s ~ ;

c-ft'c /1/
. 1~:c/fl½
~-

,

/

_,,,

/

CircuitCourtJudge

LAWRENCE S. TALON A TRUE COPY
CATl:IY M. GARRETT
WI\

OUN1X

ERK

10

STATE OF MICHIGAN
IN THE THIRD JUDICIAL CIRCUIT COURT
FORTHECOUNTYOFWAYNE
PEOPLE OF THE STATE OF M ICHIGAN,
Plaintiff,

Hon. Lawrence S. Talon
Case# 13-007077-01 FC

VS

NASSER MOHAMAD BAZZ I,
Defendant.

___________________.!
ORDER

At

t1

session of this Court held in the Frank

OCT 2 4 2018

Murphy Hall of Justice on _ _ _ _ __

PRESENT: HON . _ _ _ _ _ _ _ _ _ __
Circuit Court Judge
In the above-entitled cause, for the reasons set forth in the foregoing Opinion;

.- --r

IT IS HEREBY ORDERED that Defendant's Motion for Relief from Judgment, requesting a

New Trial and the assistance of an interpreter is DENIED.

'

./

// /~\_,,-,_,/

1/

/ ~·

Circuit Court Judge

A TRUE COPY
CATHY M. GARRETT
WAY

NTY C

K

PROOF OF SERVICE

I certify that

II CO/'Y of the abauc i11stn1111~11t was , cr1•cd upon tlie attorneys of record a11dlor self-rcprese11ted parties
i11 the ab()V<' case by 111t1ili11g it to tin· 1tt.4°p1cys,,111;tu,r;wrt~.at the l111si11c;;;; address as disclosed by the pleadings of
1~
/
·, / ··-/ I I · · ;,
· f , .,
r,·cord, u1ifh l'rcp{Ji];J postac.;c 011
/, '.-'/ y · '/n 1.. /j /)

;<~tt?-✓- /-;

/<~.!. ____!___!~/ .

L,

Name

11

App. 4

AFFIDAVIT

STATE OF MICHIGAN
COUNTY OF WAYNE

)
) ss
)

The undersigned deposes and states as follows:
1. I, Cyril C. Hall, represented Mr. Nasser Bazzi. The case went all the way to jury trial
with a guilty verdict.
2. I have first-hand knowledge that Mr. Bazzi' s primary language is Arabic, and that during
all relevant proceedings his English language comprehension may have been
compromised.
3. I did not employ a translator during trial preparation. However, I did work very closely
with attorney Amir Makled, who has a basic understanding of Arabic.
4. I am not a certified translator, nor am I fluent in Arabic.
5. I did not request a translator to assist Mr. Bazzi during his preliminary examination or his
trial, or discuss with Mr. Bazzi the right to request the assistance of a certified translator.
6. I recall Mr. Bazzi complaining of translation during the trial, especially during testimony
regarding the audio recording entered into evidence at trial.
7. Mr. Makled and I did our best to fully explain the plea offer to Mr. Bazzi. However, in
retrospect, I am not prepared to say with certainty that he fully understood the
consequences of going to trial.
8. Mr. Makled and I did our best to fully explain to Mr. Bazzi his right to take the stand in
his own defense. However, in retrospect I am not prepared to say with certainty that Mr.
Bazzi fully understood that right.

9. I did assist Mr. Bazzi's appellate attorney, Mr. Cornelius Pitts, in developing issues to
raise on appeal.

Mr. Pitts and I did not discuss the matter of Mr. Bazzi's right to

assistance by a translator.

I do affirm that the above statements are true to the best of my knowledge, information, and
belief.

Subscribed and sworn before me this

Pu lie, ~ o u n t y , MI
My commission expires

-S/t<(/83

LAMA KHARBOUTLI
NOTARY PUBLIC-STATE OF MICHIGAN
COUNTY OF WAYNE
My Commission Expires Mar. 14, 2023
Acting in the County of

2

App. 5

AFFIDAVIT
STATE OF MICHIGAN
COUNTY OF WAYNE

)
) ss
)

The undersigned deposes and states as follows:
1. I, Amir Makled, represented Mr. Nasser Bazzi. The case went all the way to jury trial
with a guilty verdict.
2. I have first-hand knowledge that Mr. Bazzi' s primary language is Arabic, and that during
all relevant proceedings his English language comprehension was very low.
3. I did not employ a translator during trial preparation. However, I have a very basic
understanding of Arabic.
4. I am not a certified translator, nor am I fluent in Arabic or, in particular, Arabic with a
Lebanese dialect.
5. I did not request a translator to assist Mr. Bazzi during his preliminary examination or his
trial, or discuss with Mr. Bazzi the right to request the assistance of a certified translator.
6. I recall Mr. Bazzi complaining of translation during the trial, especially during testimony
regarding the audio recording entered into evidence at trial.
7. Mr. Hall and I did our best to fully explain the plea offer to Mr. Bazzi. However, in
retrospect, I am not prepared to say with certainty that he fully understood the
consequences of going to trial.
8. Mr Hall and I did our best to fully explain to Mr. Bazzi his right to take the stand in his
own defense. However, in retrospect I am not prepared to say with certainty that Mr.
Bazzi fully understood the consequences of going to trial.

I do affirm that the above statements are true to the best of my knowledge, information, and
belief.

Subscribed and sworn before me this

aj0jlfCounty, MI
My commission expires
.

·-- -----------,
LAMA KHARBOUTU

r·-: OTARY PUBLIC-STATE OF ~- , ::: ; :' '.,AN

COUNTY OF W,WN E
My_Co~mission Expil;s lw - 1' :. ,,-,3
Acting 1n the County c,

--d!!:J..'6t --

2

l[tCf/;;).J

App. 6

AFFIDAVIT OF NASSER MOHAMAD BAZZI

STATE OF MICHIGAN
COUNTY OF WAYNE

)
) ss
)

The undersigned deposes and states as follows:
1. I, Nasser Mohamad Bazzi, am the defendant in this matter and was convicted after a jury

trial before the Honorable Lawrence S. Talon of two counts of first-degree criminal
sexual conduct (CSC I), MCL 750.520b(l)(a), two counts of second-degree criminal
sexual conduct (CSC II), MCL 740.520c(l)(a), and two counts of fourth-degree criminal
sexual conduct (CSC IV), MCL 520e(l )(a).
2. My primary language is Arabic, and this is the language I spoke with my family and in
my community until I was convicted. At the time of my trial, my English language skills
were very limited.
3. I went to school in Beirut until I was 10 years old. I never went to school in the United
States. When I told the trial judge that I had gone to school through the tenth grade, I did
not understand the trial judge's question.
4. Attorneys Cyril C. Hall and Amir Makled represented me before and during trial.
5. I had very few communications with my trial attorneys. I never spoke with Attorney
Hall, and my discussions with Attorney Makled were limited.
6. I asked to bring my wife, an English speaker, to attorney visits, but my attorneys told me
it was best for her not to get involved.
7. My brother, Haidar Bazzi, was their main contact throughout the proceedings. Haidar
would speak to my attorneys and then update me in Arabic.

8. I did not understand much of the dialogue during the hearings or during trial. I would ask
Haidar to explain what happened after we left the court.
9. In rejecting the prosecutor's plea offer and during all questioning by the trial court I
indicated my assent at the direction of counsel, but did not fully understand the nature of
the court proceedings.
10. My attorneys told me not to accept the plea agreement because the case against me was
"bullshit." They did not explain the consequence of accepting the plea agreement or the
consequence of being convicted after a trial.
11. Had I understood the plea agreement and the risk of going to trial, it is very likely that I
would have accepted the plea agreement. I cannot say that I would have accepted with
absolute certainty because I did not understand the terms when offered and I do not know
what they were.
12. Neither Mr. Hall nor Mr. Makled informed me that I had the right to a court-appointed
interpreter or recommended that an interpreter assist in the preparation of my defense.
13. My attorneys told me, through Haidar, over and over that I had nothing to worry about,
and that they would handle everything. I was not aware of any reason to doubt that this
was true.
14. I told Attorney Makled that I was having trouble understanding the testimony and what
was happening in the courtroom because Arabic is my first language and I am not fluent
in English. Attorney Makled told me not to worry about it.
15. I also informed Attorney Makled during trial that the witness translator was making
mistakes in her translation. The translator spoke a different dialect than my family.

2

16. Attorney Cornelius Pitts represented me on direct appeal. He visited me twice but did not
bring a pen or paper. Attorney Pitts came once for 30. minutes to introduce himself and
once before he filed the appeal.
17. I did not understand who Attorney Pitts was or what he was doing in relation to my case.
18. I had trouble communicating with Attorney Pitts but Attorney Pitts did not inquire about
my need for an interpreter.
19. If called to testify, I can and will provide further information.
I do affirm that the above statements are true to the best of my knowledge, information,
and belief.

;Ja5c:;e£ R!A~ ::c-;
~

Nasser M. Bazzi

Subscribed and sworn before me this

2on .ay o fAfh(
.
~ , 2018, by.
_T"'-..(l_

otary Public, (l}fookfrl.r,,,.County, MI
-"-, ,,

'<::.w

7'-iJ=,::~/
- g
~

My commission exp~:~S>~~ i

·~

•

.

½•

JOSEPH E. Nll:MIEG
NOTARY eueLJC, Stl.\I,f: OF·MI
COUNTYOE·MONTCALM
·
MY COMMISSION,EXRiRES Jul 21 2-0...··
ACTING IN COUNTY 0FlV4> t'f 1'-t:~~

3

App. 7

People v. Bazzi, Not Reported in N.W.2d (2015)

2015 WL 5749385
Only the Westlaw citation is currently available.
UNPUBLISHED OPINION. CHECK
COURT RULES BEFORE CITING.
UNPUBLISHED
Court of Appeals of Michigan.
PEOPLE of the State of
Michigan, Plaintiff–Appellee,
v.
Nasser Mohamad BAZZI, Defendant–Appellant.
Docket No. 320065.
|
Oct. 1, 2015.
Wayne Circuit Court; LC No. 13–007077–FC.
Before: WILDER, P.J., and SHAPIRO and RONAYNE
KRAUSE, JJ.
Opinion
PER CURIAM.
*1 Defendant appeals as of right his jury trial convictions
of first-degree criminal sexual conduct (CSC–I), MCL
750.520b(1)(a), two counts of second-degree criminal
sexual conduct (CSC–II), MCL 750.520c(1)(a), and two
counts of fourth-degree criminal sexual conduct (CSC–
IV), MCL 750.520e(1)(a). The trial court sentenced
defendant to 135 months to 22 years for each CSC–I
conviction, 10 to 15 years for each CSC–II conviction, and
one to two years for each CSC–IV conviction, all sentences
to be served concurrently. We affirm.

family members testified that defendant was a frequent
visitor and often spent the night in available spaces in the
family home, including the room shared by the victim and
four of her sisters.
The victim testified that defendant started to abuse
her when she was 11 years old and described multiple
instances of sexual abuse at trial. 1 In the context of
explaining her relationship with defendant, the victim
explained that, when her father was not present, defendant
disciplined the children and even hit them, without
objection from her mother. The victim further explained
that avoiding disrespect is very important in Lebanese–
American culture, and the men in her family are like
kings, whereas women are like servants. As a result,
she continued to interact with defendant after the abuse
began and behaved according to her culture's expectations
because, otherwise, she feared that defendant or her
mother would “make a problem out of it.”
Despite the fact that defendant threatened to kill her if
she revealed his abuse, and that talking about molestation
was not a “comfortable” subject within her family, the
victim testified that she eventually began to reveal the
abuse that had occurred. The victim explained that her
family repeatedly urged her to maintain her secrecy after
she revealed the abuse, reasoning that it could cause
embarrassment. The victim further clarified that, if a man
knows a woman has been “touched before[,] ... it's like
you're trash ... like you're not worthy to marry a good
man.”
Zeina Hamid, the wife of the victim's brother, Ahmad
Hamid, recalled overhearing a conversation at her
house between the victim's sisters (Latefa and Fatema
Hamid) and the victim's friend (Hoda Fawaz) about the
molestation. 2 She later directly confronted the victim
about the abuse, but, at the urging of Latefa, Fatema and

I
A
Defendant's convictions arise out of instances of sexual
abuse against his niece during her childhood and teenage
years. Before the victim married her husband in November
2011, she lived with her mother, Afrah Hamid, and eight
siblings in the family home in Dearborn, Michigan. Her
father also lived with the family until his death. Various

Hoda, did not report the conduct. 3 Zeina testified that
the victim's mother and sister, Laila Hamid, subsequently
warned her to maintain the secrecy for the sake of the girls'
reputations and their abilities to marry. At trial, Laila
admitted that she warned Zeina to stay out of her family's
business.
*2 When the victim was engaged in August 2011,
and began planning her wedding, her mother wanted
defendant to sing at the wedding. 4 The victim testified

WESTl.AW © 2018 Thomson Reuters. No claim to original U.S. Government Works.

1

People v. Bazzi, Not Reported in N.W.2d (2015)

that the victim confronted her mother directly about the
abuse in order to explain why she did not want defendant
to sing. At trial, the mother testified that the victim never
told her that defendant had abused her and only indicated
that he abused others. Additionally, the mother stated
that the victim's accusations that defendant abused others
were merely suspicions, with no personal observations,
and constituted a sin in their religion.
According to the victim, she secretly recorded a
subsequent conversation with her mother about
defendant's abuse two or three weeks after she first
revealed the abuse to her mother because of her mother's
lack of support with regard to the allegations and a
fear that she would be accused of lying. The recording
was primarily in Arabic, and the record demonstrates a
dispute among the witnesses and an interpreter regarding
the English translation of the conversation. The victim
testified that, during that conversation, she again told
her mother that defendant abused her and others, but
her mother angrily expressed concerns about “how this
would look if people found out in the community,” stating
that the victim should lie about it, even if she had a gun
pointed to her head, and take the information to her
grave. Likewise, Ahmad confirmed that that his mother
and sister “were talking about how [defendant] molested
her and pretty much, you know, my mom was telling
her to stay quiet, not tell anybody.” The prosecutor
also elicited testimony that, in the recording, the victim
mentioned whom she had previously told about the abuse.
In contrast, Latefa claimed that her mother never told
the victim to lie, and Laila and the mother testified that
they did not hear any reference to the victim or her sisters
being abused on the recording. Instead, they testified
that the victim had only stated that the defendant had
abused “somebody else” or “other people,” and that the
mother had only told the victim to stop talking about her
suspicions, which were not based on anything that the
victim witnessed herself. 5
After the victim's wedding in November 2011, Ahmad
noticed that his family was treating the victim and Zeina
differently. When he confronted the victim, she revealed
defendant's abuse. Ahmad testified that, afterward, he
discussed the abuse with their mother, who urged him to
keep the secret to preserve his sisters' ability to marry.
Ahmad also discussed the abuse with his brothers and his
father's brothers, who called a family meeting at one of
their homes the next day.

The victim testified that, at the family meeting, (1)
she discussed the abuse that she had suffered, (2)
Mariam admitted to having heard the victim's allegations
once before, and, (3) although they initially denied
that defendant had abused them, Fatema and Latefa
ultimately revealed that they were victims as well. Ahmad
and Zeina, as well as the victim's aunt (Soufa Moukdad)
and her uncle (Moustafa Hamid), testified similarly on
rebuttal that, at the meeting, the victim, Fatema, and
Latefa revealed that defendant had abused them; these
witnesses explained that the victim's sisters initially denied
the abuse, but admitted it after an uncle suggested a
polygraph examination. According to the victim, the
meeting ended with the family crying and hugging one
another. The victim testified that she did not go to
the police afterward because she lacked the necessary
confidence and self-esteem; she was also trying to give her
sisters time to process their revelations.
*3 Defendant's witnesses testified very differently
regarding the family meeting. They maintained that
Fatema and Latefa denied any abuse throughout the
meeting, despite the suggestion of a polygraph and
Ahmad's “very explosive” behavior and tendency to
gesture toward his waist—where a gun could have been
stored in a holster—when the sisters refused to change
their stories. Likewise, Fatema and Latefa again testified
at trial that defendant never abused them.
The victim testified that, after the meeting, her mother,
sisters, and two brothers (Hassan and Ali Hamid) never
talked to her again. Although she admitted that her
mother attempted to contact her while she was pregnant,
the victim did not respond. She suspected that her mother
only wanted to save face in the community. Ahmad
similarly had little contact with his family after the meeting
and explained that he lost respect for his mother, who was
most worried about “hiding everything.”
In June 2012, the victim recorded her feelings about
defendant's conduct in a diary. She testified that she
did not specifically describe what occurred during the
molestation. In her diary, she also discussed her family's
attempts to interfere with her marriage.
Ahmad testified that, in January 2013, which was
approximately one year after the family meeting, he
could no longer maintain the family's secret. Despite his

WESTl.AW © 2018 Thomson Reuters. No claim to original U.S. Government Works.

2

People v. Bazzi, Not Reported in N.W.2d (2015)

mother's warnings that his sisters would be blacklisted,
he reported the abuse of his sisters by defendant to the
police so that he would not “do something crazy” and
“go to jail.” Afterward, his mother cut off all ties with
him. The investigating officer testified that she reached out
to Laila, Fatema, Latefa, and Mariam, but only Mariam
responded, indicating that she did not want to be involved.

A. It's not true.
Q. Fair to say you wouldn't want that to be true,
correct?
A. It's not true.
Q. Sir, yes or no, is it fair to say that you wouldn't want
that to be true?

B
At trial, the prosecutor indicated during her opening
statement that “there were allegations that came out
and there was [sic] some disclosures” at the family
meeting. Subsequently, during his opening statement,
defense counsel asserted that although the victim claimed
to the police that defendant also abused Laila, Fatema,
and Latefa, “[n]ever was [defendant] ever confronted
with having touched one of those younger sisters.” He
later asserted that Ahmad used a gun and threatening
conduct at the family meeting “to solicit and demand
and extract confessions from the girls[, but even] ...
in the face of ... all those threats[,] all the girls are
consistent, nothing ever happened to us, what are you
doing and why are we here and why are we going
through this?” Subsequently, witnesses offered conflicting
testimony regarding whether the victim's sisters were
abused by defendant and whether the sisters disclosed that
they were abused during the family meeting. During their
testimony, the sisters consistently maintained that they
were not sexually abused by defendant. The defense did
not make a timely objection to the prosecutor's opening
statement or to any of the references to defendant's abuse
of the other sisters during the prosecution's case-in-chief.
During his closing argument, the defense argued that the
victim was not credible in making her allegations against
defendant because she lied when she claimed that her
sisters had made similar allegations.
*4 Additionally, the prosecutor elicited the following
testimony from the victim's brother, Ali:
Q. Now, you said you would never—you'd never of
thought that your uncle would do something, correct,
to your sisters?
A. No, I wouldn't of.

A. Yes.
Q. Okay. And if it were true that would mean that
you, as an older brother, failed to protect your younger
sisters, isn't that correct?
A. It's a hypothetical. I'm not even going to answer it.
Q. Would that mean you failed, as an older brother, to
protect your younger sisters?
A. No, I don't think so.
Q. If your uncle who was living in the house was
molesting your sistersA. No.
Q.—you wouldn't feel guilty at all?
A. No.
Also during trial, defense counsel attempted to elicit
testimony, which the trial court excluded, regarding the
details of a variety of matters, including, inter alia, the
family's dissatisfaction with the victim's husband; the
criminal record of the victim's husband; the family's
disapproval of Zeina before she married Ahmad; the
family's relationship and contact with Zeina and Ahmad
after their marriage; the interactions between the victim's
mother and Ahmad's and Zeina's child; an instance during
which Ahmad allegedly assaulted his mother; defendant's
relationship with the victim's father; an instance during
which defendant “demanded” that the victim dance with
him; whether Ahmad apologized after the family meeting;
how Latefa would have responded if she had told her
mother that she had been abused and her mother did
not believe her; whether the victim changed her phone
number after her wedding; and the mother's contact and
relationship with the victim before and after the wedding.

Q. And you don't want that to be true, is that correct?

WESTl.AW © 2018 Thomson Reuters. No claim to original U.S. Government Works.

3

People v. Bazzi, Not Reported in N.W.2d (2015)

Following the parties' closing arguments, the trial court
specifically instructed the jury, “If you believe that a
witness previously made a statement inconsistent with
his or her testimony at this trial[,] the only purpose to
which that earlier statement can be considered by you is in
deciding whether the witness testified truthfully in court.
The earlier statement is not evidence that what the witness
said earlier is true.”
Following his trial and sentencing hearing, defendant filed
a motion for a new trial and request for a Ginther 6
hearing, which the trial court denied. Subsequently,
defendant filed in this Court a motion to remand for
an evidentiary hearing in order to further develop the
factual record. On January 23, 2015, this Court denied the
motion, stating:

The Court orders that the motion to remand pursuant
to MCR 7.21l(C)(I) is DENIED. Defendant-appellant
previously moved for a new trial and requested
an evidentiary hearing under MCR 7.208(8) on the
same grounds raised in the motion to remand,
which the trial court denied. Defendant-appellant has
not demonstrated that the trial court should have
conducted an evidentiary hearing on the issues raised
in his motion for a new trial. The majority of
the arguments involve matters that can be reviewed
based on the existing trial record. On the remaining
issue involving the trial court's ruling limiting crossexamination regarding motive or bias, defendantappellant has not supported his motion with an affidavit
or offer of proof to establish how he would further
develop the record on that issue on remand. [People
v. Bazzi, unpublished order of the Court of Appeals,
entered January 23, 2015 (Docket No. 320065).]

Mich. 750, 763; 597 NW2d 130 (1999). To demonstrate
such an error, the defendant must show that (1) an error
occurred, (2) the error was clear or obvious, and (3) “the
plain error affected [the defendant's] substantial rights,”
which “generally requires a showing of prejudice, i.e.,
that the error affected the outcome of the lower court
proceedings.” Carines, 460 Mich. at 763.
Additionally, our review of defendant's ineffective
assistance of counsel claims is limited to errors apparent
from the lower court record because a Ginther hearing
was not held in the trial court. People v. Jordan, 275
Mich.App 659, 667; 739 NW2d 706 (2007) (citations
omitted). “A claim of ineffective assistance of counsel is
a mixed question of law and fact. A trial court's findings
of fact, if any, are reviewed for clear error, and this Court
reviews the ultimate constitutional issue arising from an
ineffective assistance of counsel claim de novo.” People
v. Petri, 279 Mich.App 407, 410; 760 NW2d 882 (2008),
citing People v. LeBlanc, 465 Mich. 575, 579; 640 NW2d
246 (2002).
Effective assistance of counsel is presumed, and
defendant bears a heavy burden of proving otherwise.
To demonstrate ineffective assistance, defendant must
show: (1) that his attorney's performance fell below an
objective standard of reasonableness, and (2) that this
performance so prejudiced him that he was deprived of
a fair trial. “To demonstrate prejudice, the defendant
must show the existence of a reasonable probability
that, but for counsel's error, the result of the proceeding
would have been different.” [People v. Gaines, 306
Mich.App 289, 300; 856 NW2d 222 (2014) (citations
omitted).]
“A defendant must also show that the result that did
occur was fundamentally unfair or unreliable.” People v.
Lockett, 295 Mich.App 165, 187; 814 NW2d 295 (2012).

II
*5 Except as noted below in Part V, all of defendant's
claims of evidentiary error and prosecutorial misconduct
are unpreserved, as defendant failed to make a timely
objection to the evidence that he challenges on appeal and
failed to object to the alleged instances of prosecutorial
misconduct.MRE 103(a)(1); People v. Metamora Water
Serv, 276 Mich.App 376, 382; 741 NW2d 61 (2007).
We review unpreserved issues for plain error affecting
substantial rights. People v. Vandenberg, 307 Mich.App
57, 61; 859 NW2d 229 (2014), citing People v. Carines, 460

III
Defendant first argues that the trial court erred by
admitting evidence that the victim alleged that he not only
abused her, but also her sisters. Defendant contends that
this was improper other-acts evidence and inadmissible
hearsay. We disagree.
The record discloses that defendant first opened the door
for evidence regarding these allegations in his opening

WESTl.AW © 2018 Thomson Reuters. No claim to original U.S. Government Works.

4

People v. Bazzi, Not Reported in N.W.2d (2015)

statement. See People v. Bates, 91 Mich.App 506, 510; 283
NW2d 785 (1979) (stating, in the context of other-acts
evidence, that a defendant may put a matter into “issue by
opening argument, cross-examination, or the presentation
of affirmative evidence”). He cannot now complain of
an error that he precipitated. To hold otherwise would
allow defendant to harbor error as an appellate parachute.
See People v. Carter, 462 Mich. 206, 214216; 612 NW2d
144 (2000); People v. Knapp, 244 Mich.App 361, 378;
624 NW2d 227 (2001) (“A defendant will not be heard
to introduce and use evidence to sustain his theory at
trial and then argue on appeal that the evidence was
prejudicial and denied him a fair trial”); People v. Green,
228 Mich.App 684, 691; 580 NW2d 444 (1998) (“A
defendant should not be allowed to assign error on appeal
to something his own counsel deemed proper at trial.”). 7
Therefore, defendant's argument is without merit. 8
*6 Defendant also asserts that defense counsel was
ineffective for either failing to object to, or by introducing,
the victim's statements regarding the alleged abuse against
her sisters. We disagree.
Here, because defense counsel opened the door to the
challenged evidence, any objection to the prosecutor's
questioning on the same topic would have been futile;
thus, defense counsel's failure to object did not constitute
ineffective assistance. People v. Unger, 278 Mich.App
210, 256; 749 NW2d 272 (2008). Furthermore, to the
extent that defendant suggests that defense counsel
was ineffective for introducing the challenged evidence,
decisions regarding what evidence to present are generally
presumed to be matters of trial strategy. LeBlanc, 465
Mich. at 578; People v.. Horn, 279 Mich.App 31, 39; 755
NW2d 212 (2008). Defense counsel introduced evidence of
the victim's allegations that defendant abused her sisters,
but then elicited testimony from her sisters that they
were never abused. As such, it is apparent that defense
counsel used this evidence to support a defense theory
that the victim's allegations involving her sisters were not
credible and, therefore, the victim's allegations against
defendant were not credible. Thus, because defendant
has not overcome the strong presumption of reasonable
trial strategy, which this Court will not second-guess,
defendant has failed to establish that defense counsel was
ineffective. Horn, 279 Mich.App at 39.

IV
Defendant next argues (1) that it was improper to admit
testimony regarding whether the victim's brother, Ali,
would feel guilty or feel as though he failed to protect
his sisters if the allegations against defendant were true,
and (2) that the evidence elicited by the prosecutor that
sexual abuse could tarnish a woman's reputation in the
victim's culture was irrelevant and constituted improper
reputation evidence. 9 We disagree.

A
On appeal, defendant describes the prosecution's
questioning of Ali with regard to how he would feel if the
allegations against defendant were true as “guilt-assuming
hypotheticals” that impermissibly attacked defendant's
character and violated defendant's right to be presumed
innocent. Contrary to this characterization, Ali did not
testify regarding defendant's character or reputation in
the community or his own character or reputation in
the community. Instead, Ali testified regarding his own
feelings about what he would and would not want to
be true and whether he would personally feel guilty for
not protecting his sisters from defendant's abuse. As
such, defendant's reliance on authority regarding guiltassuming hypotheses by character witnesses is inapposite
because, here, Ali was a fact witness, and he was not
testifying about defendant's reputation in the community.
If the prosecutor had established that believing the
allegations against defendant would have made Ali
feel guilty, the prosecutor could have argued that Ali
was motivated to disbelieve those allegations and, thus,
provided biased testimony on behalf of defendant. “A
witness's bias is always relevant.” People v. McGhee, 268
Mich.App 600, 637; 709 NW2d 595 (2005). However,
Ali denied that he would feel any guilt and reiterated
during the questioning that the allegations against
defendant were untrue and that the prosecutor's questions
were “hypothetical.” Therefore, defendant has failed to
establish that this line of questioning was prejudicial and
affected his substantial rights. Carines, 460 Mich. at 763.
Likewise, defendant's claim of ineffective assistance on
this basis must fail because an objection would have been
futile, see Unger, 278 Mich.App at 256, and defendant has

WESTl.AW © 2018 Thomson Reuters. No claim to original U.S. Government Works.

5

People v. Bazzi, Not Reported in N.W.2d (2015)

failed to establish that he was prejudiced by this line of
questioning, see Gaines, 306 Mich.App at 300.

B
*7 With regard to defendant's argument that the
testimony regarding a woman's reputation in Lebanese–
American culture was irrelevant, evidence is relevant
under MRE 401 when it has a tendency to make a material
fact that is of consequence to the action more or less
probable. People v. Sabin, 463 Mich. 43, 56–57; 614 NW2d
888 (2000). Contrary to defendant's claim, “[m]ateriality ...
does not mean that the evidence must be directed at an
element of a crime or an applicable defense. A material
fact is one that is ‘in issue’ in the sense that it is within
the range of litigated matters in controversy.” Id. at 57
(citations and quotation marks omitted).
From the outset of the case, beginning with his opening
statement, defense counsel attacked the victim's credibility
by arguing that her delay in reporting the allegations
indicated that the allegations were untrue. As such, any
explanations for the delay were relevant to whether the
victim was fabricating the allegations. The victim testified
that, in her culture, if a man knows that a woman has been
“touched before[,] ... it's like you're trash ... like you're not
worthy to marry a good man.” Additionally, the victim
testified that when her family finally learned about the
abuse, she was repeatedly warned to keep the information
a secret in order to protect her reputation. The jury could
infer that, as a result of this cultural belief, the victim did
not reveal the abuse immediately, and even when she did
reveal the abuse, the information was contained within
the family for months for the same reason before Ahmad
sought help from the police. Thus, the evidence regarding
the perception of sexual abuse in the victim's culture was
relevant, and its admission was not plain error. Moreover,
defense counsel was not ineffective for failing to object
because any objection would have been futile. Unger, 278
Mich.App at 256.

V
Next, defendant argues that many of the trial court's
rulings on the admission of evidence during defense
counsel's cross-examination of the prosecution's witnesses
and direct examination of the defense witnesses denied

him the constitutional rights to present a defense and
confront the witnesses against him. We disagree.
When an issue is preserved, we review a trial court's
evidentiary ruling for an abuse of discretion. People
v. Chelmicki, 305 Mich.App 58, 62; 850 NW2d 612
(2014). Preliminary questions of law underlying the
trial court's ruling, such as whether a rule of evidence
precludes admissibility, are reviewed de novo. Id. A
preserved evidentiary error is presumed to be harmless,
and defendant bears the burden of proving otherwise.
People v. Lukity, 460 Mich. 484, 493–495; 596 NW2d 607
(1999). This Court only reverses if, “ ‘after an examination
of the entire cause, it shall affirmatively appear’ that it
is more probable than not that the error was outcome
determinative.” Id. at 495–496, quoting MCL 769.26. The
“examination of the entire cause” encompasses evaluating
the error in the context of the untainted evidence. Lukity,
460 Mich. at 495.
*8 A defendant's constitutional right to present a defense
and confront his accusers is secured by the right to crossexamination guaranteed by the Confrontation Clause. US
Const, Am VI; Const 1963, art 1, § 20; People v. Adamski,
198 Mich.App 133, 138; 497 NW2d 546 (1993). However,
the right to present a defense and cross-examine witnesses
is not absolute. See People v. Hayes, 421 Mich. 271, 279;
364 NW2d 635 (1984); People v. Arenda, 416 Mich. 1, 8;
330 NW2d 814 (1982). “A witness may be cross-examined
on any matter relevant to any issue in the case,” MRE
611(c); see also People v. Layher, 464 Mich. 756, 764;
631 NW2d 281 (2001), but neither the Confrontation
Clause nor due process confers an unlimited right to admit
all relevant evidence or cross-examine on any subject,
Adamski, 198 Mich.App at 138. Rather, a court has wide
latitude to impose reasonable limits on cross-examination
based on concerns such as prejudice, confusion of the
issues, or questioning that is only marginally relevant,
among others. Id.; People v. Canter, 197 Mich.App 550,
564; 496 NW2d 336 (1992). Likewise, a defendant is not
permitted to introduce irrelevant evidence, MRE 402,
and a trial court may properly exclude evidence “if its
probative value is substantially outweighed by the danger
of unfair prejudice, confusion of the issues, or misleading
the jury, or by considerations of undue delay, waste of
time, or needless presentation of cumulative evidence,”
MRE 403.

WESTl.AW © 2018 Thomson Reuters. No claim to original U.S. Government Works.

6

People v. Bazzi, Not Reported in N.W.2d (2015)

To the extent that defendant provides a specific basis for
his claims of evidentiary error, the thrust of his argument
is that the trial court erroneously precluded him from
eliciting evidence demonstrating that the prosecution's
witnesses had reasons or motivations to lie, which was
relevant in response to the prosecution's theory of the case
that her witnesses, particularly the victim and Ahmad,
lacked a motive to lie about the allegations against
defendant. For the following reasons, we find no basis for
reversal.
Defendant challenges the preclusion of defense counsel's
question to Mariam regarding whether she discussed her
dissatisfaction with the victim's “choice of husband” and
Laila's testimony that the victim's husband had a criminal
record. The trial court ruled that the evidence regarding
Mariam's dissatisfaction with the victim's husband was
not relevant and struck Laila's statement regarding the
victim's criminal history from the record. Defendant
elicited evidence throughout trial in support of his theory
that the family's disapproval of the victim's husband
motivated her to fabricate the allegations of abuse. As
such, any testimony from Mariam and Laila about the
same subject would have been cumulative, and defendant
does not argue how the family's specific reason for
disliking the victim's husband—an alleged criminal record
—was material to his case. Therefore, even if we assume,
arguendo, that the trial court erroneously excluded this
evidence, defendant cannot establish that it is more
probable than not that the exclusion of this evidence
was outcome-determinative, as defendant's theory of the
case was adequately presented by other witnesses and
arguments. Lukity, 460 Mich. at 495.
*9 Defendant also cites excluded questions regarding
the family's disapproval of Zeina; the family's relationship
with Ahmad and Zeina after their marriage; whether
Zeina knew that the victim's mother did not want Zeina
to influence her daughters; and the extent of Zeina's
contact with the women in the family. The prosecutor
objected to these questions on several grounds, including
relevance. Even if this evidence was relevant, inter alia,
to demonstrate Ahmad's and Zeina's motivation to lie
about defendant because they had a poor relationship with
the family, it would have been cumulative. The record
demonstrates that the same questions were asked of other
witnesses, and defense counsel relied on their responses in
his arguments to the jury regarding the defense's theory of
the case. Thus, even if we assume, without deciding, that

the trial court erred in excluding the testimony regarding
these matters, defendant cannot establish that it is more
probable than not that the exclusion of this evidence was
outcome-determinative. Lukity, 460 Mich. at 495.
Defendant cites questions by defense counsel regarding
the interactions of the victim's mother with Ahmad's and
Zeina's child and whether they accused her of hurting their
son. But, again, the record already demonstrated that a
conflict existed between Ahmad and Zeina and the rest of
his family. Although the couple's belief that the mother
abused their son may have demonstrated their bias against
the mother, defendant fails to explain how this bias was
material to any alleged bias against defendant; rather,
defendant elicited testimony that Ahmad and defendant
had been great friends, who often socialized together. As
such, defendant once again cannot establish that it is more
probable than not that the exclusion of this evidence was
outcome-determinative. Lukity, 460 Mich. at 495.
Defendant cites numerous other trial court rulings without
any analysis regarding why the trial court abused its
discretion in excluding the evidence. “It is not enough for
an appellant in his brief simply to announce a position
or assert an error and then leave it up to this Court to
discover and rationalize the basis for his claims, or unravel
and elaborate for him his arguments, and then search for
authority either to sustain or reject his position.” People v.
Kevorkian, 248 Mich.App 373, 389; 639 NW2d 291 (2001)
(quotation marks and citation omitted). Accordingly, we
conclude that these additional claims of evidentiary error
are abandoned.

VI
Defendant argues that the victim's diary entries were
inadmissible hearsay, that the elicitation of this evidence
amounted to prosecutorial misconduct, and that defense
counsel provided ineffective assistance by failing to object
to the diary entries. We disagree.
MRE 801(c) defines hearsay as “a statement, other than
the one made by the declarant while testifying at the trial
or hearing, offered in evidence to prove the truth of the
matter asserted.” “A ‘statement’ is (1) an oral or written
assertion or (2) nonverbal conduct of a person, if it is
intended by the person as an assertion.” MRE 801(a).

WESTl.AW © 2018 Thomson Reuters. No claim to original U.S. Government Works.

7

People v. Bazzi, Not Reported in N.W.2d (2015)

Hearsay is not admissible, except as specifically provided
by the rules of evidence. MRE 802.
*10 With regard to prior consistent statements, MRE
801(d) provides, in relevant part:
(d) Statements which are not hearsay. A statement is not
hearsay if—
(1) Prior statement of witness. The declarant testifies at
the trial or hearing and is subject to cross-examination
concerning the statement, and the statement is ... (B)
consistent with the declarant's testimony and is offered
to rebut an express or implied charge against the
declarant of recent fabrication or improper influence or
motive....
In People v. Jones, 240 Mich.App 704, 706–707; 613
NW2d 411 (2000), this Court, quoting United States v.
Bao, 189 F3d 860, 864 (CA 9, 1999), held that the party
offering a prior consistent statement must establish four
elements:
(1) the declarant must testify at
trial and be subject to crossexamination; (2) there must be an
express or implied charge of recent
fabrication or improper influence or
motive of the declarant's testimony;
(3) the proponent must offer a
prior consistent statement that
is consistent with the declarant's
challenged in-court testimony; and,
(4) the prior consistent statement
must be made prior to the time that
the supposed motive to falsify arose.
[Quotation marks omitted.]
First, defendant contests the second element of the
inquiry, arguing that defense counsel's challenges to
the victim's credibility in his opening statement were
insufficient to constitute express or implied charges of
fabrication because he had not yet cross-examined the
victim and his opening statement was in response to the
prosecution's opening statement. This Court rejected this
same argument in Jones, holding that the second element
was satisfied by defense counsel's comments during her
opening statement that the witness's testimony resulted
from improper influence or motive. Jones, 240 Mich.App
at 707–708. Although defendant asserts that Jones was

wrongly decided, we are bound by that decision. See
MCR 7.215(J)(1). Therefore, we reject defendant's claim
given the express and implied charges in defense counsel's
opening statement that the victim's allegations against
defendant were fabricated.
Second, defendant contests the fourth element, asserting
that the victim did not compose the diary entries before
the time that the supposed motive to falsify arose. We
agree that, by the time the victim wrote the diary entries
in 2012, the alleged motive to falsify—retribution for
her family's disapproval of her husband—had already
arisen. However, even if the diary entries were therefore
hearsay, such that the admission of the diary entries
constituted plain error, defendant cannot establish that
the evidence affected his substantial rights. The victim's
testimony regarding the specific instances of sexual abuse
by defendant, standing alone, was sufficient to support
defendant's convictions. See MCL 750.520h; People v.
Hallak, –––Mich.App ––––, ––––; ––– NW2d –––– (2015)
(Docket No. 317863); slip op at 4. The victim testified
that she only made general allegations of abuse and
explained how she felt afterward in her diary. The
record demonstrated that the victim made similar, general
allegations to her sisters, to her friend, to her family
at a meeting, and to her husband. Defendant does not
argue on appeal that this evidence also should have been
excluded. In light of this cumulative evidence in the
record, we conclude that any error in the admission of the
diary entries did not affect defendant's substantial rights
because defendant has not shown that the admission of the
evidence affected the outcome of the proceedings. Carines,
460 Mich. at 763.
*11 We further reject defendant's claim of prosecutorial
misconduct because he does not argue that this evidence
was presented in bad faith, see People v. Dobek, 274
Mich.App 58, 70; 732 NW2d 546 (2007) (“A prosecutor's
good-faith effort to admit evidence does not constitute
misconduct.”), and a cautionary instruction could have
cured any prejudice, People v. Ackerman, 257 Mich.App
434, 449; 669 NW2d 818 (2003). Additionally, we reject
defendant's claim of ineffective assistance. 10 We will not
second-guess defense counsel's strategy, which included
not objecting to the diary entries and using evidence
from the same entries to attack the victim's credibility—
including that the victim wrote that defendant only “tried
to do things” to her and left her alone when she asked
—and support the defense theory that the victim blamed

WESTl.AW © 2018 Thomson Reuters. No claim to original U.S. Government Works.

8

People v. Bazzi, Not Reported in N.W.2d (2015)

defendant as retribution for the discord in her family
related to her marriage. LeBlanc, 465 Mich. at 578; Horn,
279 Mich.App at 39. Likewise, there is no indication that
defendant was prejudiced by defense counsel's failure to
object to the statements in the diary for the reasons stated
above.

VII
Defendant argues that testimony regarding the contents
of the recorded conversation between the victim and her
mother constituted inadmissible hearsay. We disagree.
As stated above, MRE 801(c) defines hearsay as “a
statement, other than the one made by the declarant while
testifying at the trial or hearing, offered in evidence to
prove the truth of the matter asserted.” The victim testified
that she recorded a conversation between herself and her
mother about defendant's abuse of her so that her mother
could not later accuse her of lying about the incidents.
The prosecutor elicited testimony that, in the recording,
the victim mentioned whom she previously told about
the abuse. The victim and Ahmad also testified that, in
the recording, their mother angrily expressed concerns
about “how this would look if people found out in the
community” and encouraged the victim to lie about it.
Contrary to defendant's claim on appeal, we find that the
contents of the recording were not offered to prove the
truth of the statements it contained (i.e., that defendant
abused the victim or that the victim's reputation in the
community was actually at risk). Although the prosecutor
did not have an opportunity to explain the reason why the
evidence was offered because defendant failed to object to
the testimony, the statements made by the parties during
their opening statements and closing arguments and the
context of the prosecutor's elicitation of the evidence
indicates that the testimony was offered to explain why
the victim maintained her secrecy and did not go to

the contents of the tape was not offered to prove the
truth of the statements, but to show the effect they had
on the victim's reporting of the incident. See Gaines,
306 Mich.App at 306–307. Furthermore, the context of
the prosecutor's examination of Ahmad indicates that
the statement was also intended to show the recording's
effect on Ahmad, which resulted in him speaking with
his mother and contacting his brothers and uncles, who
initiated a family meeting. Id. Therefore, we conclude that
it was not plain error to admit the victim's and Ahmad's
testimony regarding the statements in the recording.
Defendant also challenges the prosecutor's elicitation of
testimony from Zeina about the recording. However,
Zeina merely testified that she heard the recording, that
she did not have a copy of the recording until shortly
before trial, and that she did not recall sharing the
recording with the police. None of this evidence involved
out-of-court statements. MRE 801. Therefore, we reject
defendant's claim that Zeina's testimony constituted
inadmissible hearsay.
Additionally, defendant challenges testimony from the
victim's mother, Ali, 12 and Latefa on cross-examination
by the prosecutor, which indicated that the victim said
in the recording that defendant only abused “somebody
else” or “other people.” 13 Because it was the prosecutor's
burden to prove that defendant abused the victim, we
conclude that it was not her intent with this testimony to
show that defendant only abused others. Therefore, the
statements were not offered for their truth and, therefore,
did not constitute inadmissible hearsay. MRE 801(c).
Rather, this testimony demonstrated that defendant's
witnesses testified in a way to further conceal a family
secret and further explained why the victim would have
delayed reporting.

the police. 11 “An out-of-court statement introduced to
show its effect on a listener, as opposed to proving the
truth of the matter asserted, does not constitute hearsay
under MRE 801(c).” Gaines, 306 Mich.App at 306–307.
Therefore, it was not plain error to admit evidence of these
statements from the recording.

Moreover, we reject defendant's claim of prosecutorial
misconduct because he has failed to establish that the
prosecutor offered the recording in bad faith, Dobek, 274
Mich.App at 70, and, to the extent that defendant argues
that defense counsel was ineffective by failing to object
to evidence of the recording, any objection would have
been futile because it was not inadmissible hearsay for the
reasons stated above. Unger, 278 Mich.App at 256.

*12 Likewise, to the extent that Ahmad described the
subject matter of the recording during his testimony, our
review of the record indicates the testimony regarding

Finally, we find no basis for reversal based on defendant's
claim that the jury impermissibly used the statements
regarding the recording and the sisters' out-of-court

WESTl.AW © 2018 Thomson Reuters. No claim to original U.S. Government Works.

9

People v. Bazzi, Not Reported in N.W.2d (2015)

statements at the family meeting as substantive evidence
of his guilt. The trial court instructed the jury that it may
only consider prior inconsistent statements in order to
determine whether the witness testified truthfully in court,
specifically stating that “[t]he earlier statement is not
evidence that what the witness said earlier is true .” “Juries
are presumed to follow their instructions,” People v..
Rodgers, 248 Mich.App 702, 717; 645 NW2d 294 (2001),
and defendant has failed to rebut that presumption.

VIII
*13 Lastly, defendant asserts that the prosecution
improperly bolstered the credibility of the out-of-court
statements made by the victim's sisters at the family
meeting by eliciting testimony that the victim's sisters
changed their stories after a suggestion was made that
they take a polygraph examination regarding whether they
were abused. We disagree.
“Normally, reference to a polygraph test is not admissible
before a jury. Indeed, it is a bright-line rule that reference
to taking or passing a polygraph test is error.” People
v. Nash, 244 Mich.App 93, 97; 625 NW2d 87 (2000)
(citations omitted). But the mere mention of the word
“polygraph” does not necessarily require reversal. Id. at
98, citing People v. Rocha, 110 Mich.App 1, 8–9; 312
NW2d 657 (1981); People v. Kosters, 175 Mich.App 748,
754; 438 NW2d 651 (1989).
[R]eference
to
polygraph
examinations need not always
constitute reversible error. A
reference may be a matter of
defense strategy, the result of a
nonresponse answer, or otherwise
brief, inadvertent and isolated.
[T]his Court has analyzed a number
of factors to determine whether
reversal is mandated ... (1) whether
defendant objected and/or sought a
cautionary instruction; (2) whether
the reference was inadvertent;
(3) whether there were repeated
references; (4) whether the reference
was an attempt to bolster a witness's
credibility; and (5) whether the
results of the test were admitted

rather than merely the fact that a
test had been conducted. [Rocha, 110
Mich.App at 8–9 (citations omitted);
see also Nash, 244 Mich.App at 98.]
Here, the references were not inadvertent or isolated.
The prosecutor specifically elicited testimony from several
prosecution witnesses about whether anyone at a family
meeting suggested the use of a polygraph examination
when the sisters denied any abuse. And the reference to the
polygraph examination could have added to the credibility
of the prosecution's witnesses, who claimed that the sisters
finally admitted that defendant abused them after the
polygraph was suggested. But there was no evidence that
a polygraph was actually given. Thus, no results were
considered by the jury. In addition, defendant did not
object to the evidence or request a cautionary instruction.
Rather, defendant used the evidence to support his defense
theory. The defense witnesses testified that the sisters'
claims that they were never abused remained consistent
throughout the family meeting—even in the face of what
they described as violent threats by Ahmad and the
suggestion that they take a polygraph. The jury could infer
from this testimony that the sisters were truthful and that
they would not have otherwise undergone such pressure
to protect a lie.
Because the defense relied on the polygraph references
to support its argument that its witnesses were credible,
defendant cannot establish that this evidence affected
his substantial rights, i.e., that it was outcomedeterminative. Carines, 460 Mich. at 763. To the extent
that defendant claims that the prosecutor's elicitation of
the challenged testimony amounted to misconduct, again,
“[a] prosecutor's good-faith effort to admit evidence does
not constitute misconduct,” Dobek, 274 Mich.App at 70,
and there is no indication that the prosecution elicited the
testimony in bad faith or that the prosecutor suggested
that she had special knowledge of the witnesses' credibility
based on the references to a polygraph, see People v.
Bennett, 290 Mich.App 465, 477; 802 NW2d 627 (2010).
Moreover, in light of defense counsel's clear strategy
to use the suggestion to take a polygraph examination
as additional evidence that the sisters, who testified
on defendant's behalf, were unwavering, defendant has
failed to overcome the strong presumption that defense
counsel's failure to object to the challenged evidence was
a reasonable trial strategy. Horn, 279 Mich.App at 39;
Unger, 278 Mich.App at 242. Likewise, for the reasons

WESTl.AW © 2018 Thomson Reuters. No claim to original U.S. Government Works.

10

People v. Bazzi, Not Reported in N.W.2d (2015)

stated above, there is no indication that the outcome of the
trial would have been different but for defense counsel's
failure to object to the challenged evidence. Gaines, 306
Mich.App at 300.
*14 Affirmed.

SHAPIRO, J. (concurring ).
I concur in the result only.

All Citations
Not Reported in N.W.2d, 2015 WL 5749385

Footnotes

1
2

3
4

5
6
7
8

9
10

11

The prosecution witnesses and defense witnesses provided different accounts of the details of the home and plausibility
of the victim being alone with defendant at specific times throughout her childhood and teenage years.
Zeina testified that the victim's family generally did not like her, and defendant's witnesses offered similar testimony.
Latefa explained that her mother accepted Zeina as Ahmad's wife, but “always made us keep a certain distance away
from her.” Defense counsel elicited testimony from the victim's sister, Mariam Hamid, that their parents did not want
Ahmad to marry Zeina.
Latefa, Fatema, and Hoda denied any such conversations.
On direct examination, the victim admitted that her family did not like her husband. Everyone but Ahmad objected to the
wedding, but her mother ultimately gave her permission to marry, and the family attended the ceremony. The victim's
mother explained that, despite her daughter's choice for a husband, she wanted to be at the wedding to support her.
The family purchased wedding gifts for the victim, but the victim never collected them from the family home. The victim
also prevented her family from throwing a shower for her and shopping for her wedding dress, and several witnesses
testified that she was standoffish at her wedding.
Ali Hamid also testified that he heard the tape, but he did not remember what his mother and sister said on the tape.
People v. Ginther, 390 Mich. 436, 443; 212 NW2d 922 (1973).
We reject defendant's claim that the prosecutor first introduced this challenged evidence in her opening statement, as
the prosecutor's statement did not include any reference to abuse perpetrated by defendant against the victim's sisters.
We also reject defendant's argument that reversal is required regardless of whether the defense opened the door to the
evidence given the mandatory notice requirement under MRE 404(b)(2). Even if a prosecutor plainly errs by failing to
provide notice, a defendant still must show that the error affected his substantial rights, i.e., that the error affected the
outcome of the trial court proceeding; reversal is only warranted “when the plain, forfeited error resulted in the conviction
of an actually innocent defendant or when an error seriously affect[ed] the fairness, integrity or public reputation of judicial
proceedings.” Carines, 460 Mich. at 763 (quotation marks and citations omitted). On the record before us, we conclude
that defendant has failed to establish prejudice from the prior-acts evidence, especially given the consistent, in-court
statements of the victim's sisters that defendant did not abuse them, and the defense's use of the victim's allegations
involving her sisters to undercut the victim's credibility.
We reject defendant's argument that there was any claim at trial in violation of MRE 404 that the victim possessed a
chaste or virtuous character. The prosecutor only argued that the victim was motivated by her family to keep the sexual
abuse—which signified a lack of virtue in her culture—a secret.
Defendant argues for the first time in his reply brief that defense counsel was ineffective when he failed to object to
the diary entries because defense counsel never asserted in his opening statement that the victim's allegations were
recently fabricated. Defendant did not raise this argument in his brief on appeal, and this argument is not responsive
to the prosecution's brief. Therefore, we decline to address it. See MCR 7.212(G) (“Reply briefs must be confined to
rebuttal of the arguments in the appellee's or cross-appellee's brief and must be limited to 10 pages, exclusive of tables,
indexes, and appendices, and must include a table of contents and an index of authorities.”). However, we note that the
remarks in defense counsel's opening statement also implied that the victim had a motive to falsify based on her family's,
and defendant's, disapproval of her husband. Jones, 240 Mich.App at 706–707 (“[T]here must be an express or implied
charge of recent fabrication or improper influence or motive of the declarant's testimony....” [Emphasis added.] ).
In making this conclusion, we find significant the fact that the victim's testimony regarding the statements in the recording
did not include a description of defendant's abuse. Although she testified that the topic of the conversation was “what
[defendant] did to me,” the rest of her testimony concerned why she recorded the conversation, how her mother reacted

WESTl.AW © 2018 Thomson Reuters. No claim to original U.S. Government Works.

11

People v. Bazzi, Not Reported in N.W.2d (2015)

12
13

to the news, and other topics that they discussed during the conversation (e.g., how the situation would appear if other
individuals in the community were aware of it and to whom the victim had disclosed her allegations).
The portion of the transcript cited by defendant only indicates that Ali confirmed that he had heard the recording; Ali
stated that he could not remember what was said.
Defendant claims the introduction of statements in the recording about “other people” or “somebody else” was more
prejudicial than probative under MRE 403. But as discussed earlier, defendant's strategy was to claim that the victim lied
about defendant's abuse of others and, therefore, similarly lied when she claimed that defendant abused her. Because
the challenged evidence also supported defendant's strategy, we reject defendant's claim.

End of Document

© 2018 Thomson Reuters. No claim to original U.S. Government Works.

© 2018 Thomson Reuters. No claim to original U.S. Government Works.

12

App. 8

AFFIDAVIT

STATE OF MICHIGAN
COUNTY OF WAYNE

)
) ss
)

The undersigned deposes and states as follows:
1. I, Haidar Bazzi, am the brother of the Defendant in this case, Mr. Nasser Bazzi.

Although the case went all the way to jury trial with a guilty verdict, it was myself and
my brother Kassem who would constantly communicate with Nasser's trial attorneys,
Mr. Hall and Mr. Mak.led, on Nasser's behalf.

2. I primarily met with the attorneys because my English was more proficient than that of
my brother Nasser, but also because attorneys Hall and Mak.led consistently advised me
there was no need to meet with Defendant Nasser Bazzi because "he wasn't going to
testify and that the case of the prosecution was bullshit and we had nothing to worry
about."

3. Only one time, a day or two before the trial began, did the attorneys meet with Defendant
Nasser Bazzi and I was present. I acted as a translator and the meeting had nothing to do
with trial strategy. Instead, it only involved instructions on how Nasser should sit, dress
etc., to portray the best image for the jury.

4. I have first-hand knowledge that Defendant Nasser Bazzi's primary language is Arabic,
as is mine, and that during all relevant proceedings his English language comprehension
was very low. Nasser relied on me after court proceedings to advise him based on what I
could comprehend as I am not a native English speaker.

5. I asked Nasser Bazzi' s attorneys for an independent translator during trial preparation and
at trial. I told the lawyers that translation of Arabic was essential for two reasons. First,
Defendant Nasser Bazzi needed to know exactly what was going on, as he could not
assist in his own defense without this knowledge. Second, as we got closer to trial, I
advised both attorneys that the recordings needed to be independently translated and we
should have our own interpreter at the trial to advise the judge of what the English
translation is/was on the recordings. I knew this was critical despite the fact that my
English language ability is moderate at best because I knew of recordings and how
critical they were if introduced at trial.

6. I recall in the evening during the trial at home, Defendant Nasser Bazzi complained of
translation presented at the trial, especially during testimony regarding the audio
recording entered into evidence at trial but only after I told him what I believed was
translated in English to the judge and jury for consideration.

7. I recall and am certain that Defendant Bazzi wanted to testify at his trial and Mr. Hall told
him 'he absolutely could not. ' Defendant Bazzi and I took this to mean he did not have a

2

right to take the stand in his own defense.

After the fact and in speaking to other

attorneys, I learned that this is untrue. I am prepared to say with certainty that Mr. Bazzi
did not fully understand the consequences of going to trial, he did not participate in his
own defense, and he absolutely did not knowingly waive his right to testify.

8. Defendant Bazzi to the best of my recollection dropped out of school in or around the age
of 10 while in Lebanon. I am certain that he did not attend any schooling whatsoever here
in the United States.
I do affirm that the above statements are true to the best of my knowledge, information, and
belief.

& di_u6tzt;
Haider Bazzi

a

Subscribed and sworn before me this

lor:1
day of~
, 2018, by:_

Notary Public,~ £ _ County, MI
My commission expires

\ l. -

i__

b

~

HUDA M. Al.AWi
NOTARY PUBLI C - MICHIGAN
WAYNE COUNTY
ACTING IN THE COUNTY OF W ~ (\ ~
MY COMMISSIOh EXPIRES 12/26/2023

3

2 o l. J

App. 9

Lanfear Consulting & Investigations

Ltd

P. 0. Box 183356 Shelby Township, Michigan 48318

October 2, 2017

PRIVILEGED AND CONFIDENTIAL

Ms. Janet Napp, Attorney at Law
Flood Law, P.L.L.C.
401 North Main Street
Royal Oak, Michigan 48067

Re: NASSER MOHAMMED BAZZI
Inmate / MDOC - Carson City Facility
10274 East Boyer Road
Carson City, Michigan 48811
Polygraph# LCI-1002-17

POLYGRAPH EXAMINATION REPORT

HISTORY
Nasser Bazzi was charged and convicted in a Wayne County Circuit Court with Criminal Sexual Conduct.
He is serving a multiple year sentence and is currently at the Carson City East Correctional Facility of the
Michigan Department of Corrections. Nasser Bazzi is an immigrant to the United States of America from
Iraq. During his trial he was not afforded an interpreter. He complained about it to his counsel and his
wife. At the request of his appellate counsel, Ms. Janet Napp, Nasser Bazzi is now going to submit to a
polygraph examination. The purpose of this polygraph examination is to determine if Nasser Bazzi is being
truthful about not understanding much of what was said and argued at his trial.
EXAMINATION DATE
A polygraph examination was scheduled for NASSER MOHAMMED BAZZI in the Carson City
Correctional Facility located at 10274 East Boyer Road, Carson City, Michigan at 9:00 AM, 10-02-17.
POLYGRAPH RIGHTS
NASSER MOHAMMED BAZZI was informed of his rights according to Act 295, P.A. 1972. The advice
of rights and permission forms were reviewed and signed.
REVIEW MATERIAL
Ms. Napp's office provided the background information necessary to conduct this polygraph examination
of Nasser Mohammed Bazzi, in this matter.

Lanfear Consulting & Investigations Ltd. P .O.Box 183356 Shelby Twp, Mi 48318

PRETEST INTERVIEW
Nasser Bazzi said he could understand some of the words being said but could not completely understand
most of what was being said. He said when the prosecutor or judge or witnesses, or even his own defense
counsel spoke quickly or used some words he did not know, or had not heard before, he would then not be
able to understand them. He also complained that the female used to translate Arabic to English for the
court was incorrect in her interpretations. In particular Nasser Bazzi said that he did not completely
understand the plea offer made by the prosecutor. It should be noted that I employed the use of an
interpreter and spoke slowly avoiding complicated terms. Even after several years in prison with only
English spoken to him Nasser Bazzi was puzzled many times and needed the interpreter to explain my
statements. All test questions were formulated and reviewed with NASSER MOHAMMED BAZZI. He
acknowledged that he understood them.
INSTRUMENT
During the polygraph examination a Lafayette Statesman Instrument, Model #761-60SA, containing
electrically enhanced components was used. The control question technique was utilized.
RELEVANT TEST QUESTIONS

I. (Q) You said you did not understand most of the trial, because oflanguage, is that a lie?
(A) No.
2. (Q) Did your attorney explain thoroughly the plea offer made by the prosecutor?
(A) No.
OPINION

It is the opinion of the undersigned examiner, based on the analysis of the polygraph examination of
NASSER MOHAMMED BAZZI, that he is being truthful to the pertinent test questions.

Christopher J. anfe ·
Certified Polygraph Exami er
Michigan License # PE-163
CJL/ml
•

Act 295, P.A. of 1972 (MCL 338.1728)

Any recipient of information, reports or results from a polygraph examiner, except for the person tested, shall not provide, disclose or
convey such information, report or results to a third party, except as may be required by law and the rules promulgated by the State
Board of Forensic Polygraph Examiners.

App. 10

0)
Test Report for BAZZI NASSER
ECF 6/2/15
TABE 9/10 Survey

ID Number: 311669
Test Date: 06/03/15
Run Date: 06/03/15

Subtests

L/F

NC

·NA

ss

GE

ED
E0
E0
E0

8
19
6
7

25
25
23
25

322
432
327
375

1. 5
3.8
1.8
1.8

25
40

48
98

379
358

2.6
2.0

Reading
Math Cornpu
Applied Math
Language
Total Math
Total Battery

NC=No. Correct
GE=Grade Equiv
NS=National Stan

L/F=Test Lev & Frm
SS=Scale Score
NRS=Literary Level
Objectives

Score

Reading
E0l INTRP GRAPH
E02 WDS CONTEXT
E03 RECALL INFO
E04 CONST MEAN
EDS EVAL/EX MNG
Subtest Avg

3/
0/
2/
1/
2/

Math Cornpu
Ell ADD WHL NUM
E12 SUB WHL NUM
El3 MUL WHL NUM
El4 DIV WHL NUM
E15 DECIMALS
Subtest Avg

6/
4/
5/
1/
3/

6
5
5
5
4

Applied Math
E21 NUM OPERATN
E22 COMP CONTXT
E23 ESTIMATION
E24 MEASUREMENT
E25 GEOMETRY
E26 DATA ANALY
E27 STAT/PROB
E28 PRE-ALG/ALG
E29 PROB SOLVG
Subtest Avg

0/
1/
1/
1/
0/
2/
0/
0/
1/

5
3
2
3
2
4
2
2
2

4
4
7
5
5

MST Percent

+

+
+
+

+

p

p

p

75
0
28
20
40
32

100
80
100
20
75
76

NP NRS

NS

OM

5
18
4
8

1

4
4
4
4

20
80
0
0

7
4

2

1

Predicted GED

4
4

NA=No. Attempted
NP=National %ile
OM=% Obj. Mastered
Objectives
Language
E30 USAGE
E31 SENT FORMA
E32 PARA DEVEL
E33 CAPITALIZ
E34 PUNCTUATION
E35 WRITG CONV
Subtest Avg
Total Average

Score

3/
0/
1/
1/
0/
2/

5
4
4
4
4
4

MST Percent
p

p

60
0
25
25
0
50
28
40

0
33
50
33
0
50
0
0
50
24

Copyright© by CTB,McGraw-Hill, Inc. All Rights Reserved.

Page 1

